<html>
<title> - HEARING TO CONSIDER THE NOMINATION OF MR. NICHOLAS J. RASMUSSEN TO SERVE AS DIRECTOR OF THE NATIONAL COUNTERTERRORISM CENTER</title>
<body><pre>[Senate Hearing 113-609]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 113-609

                   HEARING TO CONSIDER THE NOMINATION
                 OF MR. NICHOLAS J. RASMUSSEN TO SERVE
          AS DIRECTOR OF THE NATIONAL COUNTERTERRORISM CENTER

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      THURSDAY, NOVEMBER 20, 2014

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
                    
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-497 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a2d3a250a293f393e222f263a6429252764">[email&#160;protected]</a>                  
                    
                    
                    
                    
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 DIANNE FEINSTEIN, California, Chairman
                SAXBY CHAMBLISS, Georgia, Vice Chairman

JOHN D. ROCKEFELLER IV, West         RICHARD BURR, North Carolina
    Virginia                         JAMES E. RISCH, Idaho
RON WYDEN, Oregon                    DANIEL COATS, Indiana
BARBARA A. MIKULSKI, Maryland        MARCO RUBIO, Florida
MARK UDALL, Colorado                 SUSAN COLLINS, Maine
MARK WARNER, Virginia                TOM COBURN, Oklahoma
MARTIN HEINRICH, New Mexico
ANGUS KING, Maine
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
            Martha Scott Poindexter, Minority Staff Director
                  Desiree Thompson-Sayle, Chief Clerk
                                CONTENTS

                              ----------                              

                           NOVEMBER 20, 2014

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.     1

                                WITNESS

Rasmussen, Nicholas, Nominee to be Director of the National 
  Counterterrorism Center........................................    18
    Prepared statement...........................................    22

                         SUPPLEMENTAL MATERIAL

Letter dated November 15, 2014, from Michael Leiter supporting 
  the nomination.................................................     3
Letter dated November 16, 2014, from Matthew Olsen supporting the 
  nomination.....................................................     5
Letter dated November 14, 2014, from Admiral William McRaven 
  supporting the nomination......................................     7
Letter dated November 14, 2014, from Sean Joyce supporting the 
  nomination.....................................................     9
Letter dated November 17, 2014, from Juan Zarate supporting the 
  nomination.....................................................    10
Letter dated November 18, 2014, from Thomas E. Donilon supporting 
  the nomination.................................................    13
Letter dated November 18, 2014, from Kenneth Wainstein supporting 
  the nomination.................................................    15
Questionnaire for Completion by Presidential Nominees............    38
Additional Prehearing Questions..................................    61
Questions for the Record.........................................    84

 
                   HEARING TO CONSIDER THE NOMINATION
                 OF MR. NICHOLAS J. RASMUSSEN TO SERVE
          AS DIRECTOR OF THE NATIONAL COUNTERTERRORISM CENTER

                              ----------                              


                      THURSDAY, NOVEMBER 20, 2014

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:22 p.m. in Room 
SD-562, Dirksen Senate Office Building, the Honorable Dianne 
Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Chambliss, 
Warner, Heinrich, King, Burr, Risch, Rubio, and Collins.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. Let me just say to the soon-to-be 
Chairman of this Committee that this is not my usual way of 
operation. I like to be on time. We got into a bit of a problem 
in the caucus, and I just wanted to say that to you.
    The Committee will come to order. We meet today in open 
session to consider the President's nomination of Mr. Nick 
Rasmussen to be the Director of the National Counterterrorism 
Center or, as we call it, NCTC. Mr. Rasmussen is well known and 
respected by the Committee. He has appeared numerous times in 
closed session as the Deputy Director of NCTC and, since Matt 
Olsen's resignation, as the Acting Director. It is my 
intention, pending today's session, to move this nomination 
quickly to the Senate and seek his confirmation before our 
adjournment in December.
    Mr. Rasmussen has been the Deputy Director of NCTC since 
2012. Prior to this, he served from 2007 to 2012 as the Senior 
Director for Counterterrorism at the National Security Council. 
He is well versed in terrorist threats to the United States and 
the growth of terrorist groups around the country.
    Mr. Rasmussen's government service goes back to 1991, with 
a series of positions at the Department of State, the NSC, and 
NCTC. Mr. Rasmussen, I enjoyed reading in the background 
materials for this hearing that public service is part of your 
family, and I'm pleased to welcome your family here who have 
been in public service as well.
    I know that I speak for the Vice Chairman of the Committee, 
Senator Chambliss, who regrets he can't be here with us today, 
and for myself when I say that we need a full-time, Senate-
confirmed Director of the National Counterterrorism Center as 
soon as possible. I won't go into the threats to our Nation, 
but they will go into the record, and it's clear I think to all 
of us who deal in this situation, with the Islamic State of 
Iraq and the Levant, or ISIL in Iraq and Syria, we continue our 
efforts to defeat Al-Qaeda in the FATA of Pakistan, and the 
number of AQ affiliates and other terrorist groups across the 
world is growing.
    So it is a real problem and it is escalating. These groups 
now have safe havens in Syria, in Libya, across other parts of 
North Africa, and in many places on line. The threat from ISIL, 
the Khorasan Group, AQAP in particular, pose a direct threat to 
the United States homeland, both from external attack and from 
directed and inspired lone wolf attacks from within the United 
States.
    The NCTC needs to be at the front of our efforts to 
identify these attacks, as it has done many times in the past. 
At the same time, the Director of NCTC is the National 
Intelligence Manager for Counterterrorism and the official in 
charge of government-wide strategic operational planning to 
defeat terrorism.
    So, Mr. Rasmussen, you have a big job before you. I've gone 
through the answers to the questions that you've submitted. I 
see no problem whatsoever, but it's a great pleasure to welcome 
you and your family here today.
    I would like to ask unanimous consent to put into the 
record the letter of support for Nick's nomination from former 
NCTC Directors Mike Leiter and Matt Olsen, Admiral William 
McRaven, former Director, FBI--former Deputy FBI Director Sean 
Joyce, and former Deputy National Security Adviser Juan Zarate.
    In the interest of moving forward, let me stop, welcome the 
nominee, and ask Senator Burr for his opening statement.
    [Letters received by the Committee regarding the nomination 
of Mr. Rasmussen follow:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Burr. Thank you, Madam Chairman.
    Nick, let me first say that I want to thank you for your 
many years of government service at the State Department, the 
White House, the ODNI, and at NCTC. And I thank you for the 
time that you spent with me the other day and your insight into 
the areas of interest that we had an opportunity to talk about.
    I'd like to welcome your wife, your parents. I know all 
three of you are proud of the progress of his career and I 
thank you for sharing him with the country, because it is 
invaluable.
    Over the last 10 years, you've focused primarily on 
analyzing the terrorist threat to our country and devising 
policies to address those threats. NCTC is going to need your 
experience in the years to come. 13 years after 9-11, we 
continue to face Al-Qaeda in Afghanistan, Al-Qaeda affiliates 
in Somalia, Yemen, North Africa, Syria, and now the Indian 
subcontinent. Boko Haram in Nigeria, Al-Shabab in Somalia, ISIL 
and Al-Nusra Front in Syria and request, and the list goes on 
and on and on and on.
    These groups raise money via criminal acts, growing 
business enterprises, and in some cases state sponsorship. 
Extremists with technical degrees, special skills and 
expertise, building IEDs or being lured to support complex 
attack plotting. Western fighters, to include Americans, are 
exploiting local and regional conditions to train extensively 
before returning home.
    Here at home, we face the threat by home-grown violent 
extremists, extremists who often utilize the information and 
connections from on-line and plan smaller-scale simple plots 
that are harder to detect. These terrorists are capable, well 
organized, well financed, and they aspire to attack U.S. 
persons and facilities abroad and at home. The terrorist threat 
is more distributed and complex than ever before. We no longer 
have the luxury of focusing our attention on one group or on 
one region.
    You're being asked to lead our Nation's primary agency for 
integrating and analyzing all intelligence related to the 
terrorist threat and you do have your work cut out for you. 
This Committee will endeavor to provide you with the resources 
you need to address the threat and to keep our Nation safe. But 
the truth is that we're going to have to make some difficult 
choices in the years to come. NCTC is a capable organization 
with excellent people. I fully expect you to lead an effective 
agency, under our watchful eye. But I can also assure you that, 
moving forward, we're going to challenge you to improve the 
center to search for efficiencies. We're going to ask tough 
questions and we're going to push you to be better, and I look 
forward to you giving us direct and candid answers.
    I thank the chair and pledge on behalf of Vice Chairman 
Chambliss and this side of the aisle, Madam Chairman, that you 
can't move too fast on this nomination for us.
    Chairman Feinstein. Thank you very much.
    Would you stand, please, Mr. Rasmussen. Would you repeat 
after me:
    I, Nick Rasmussen, do solemnly swear that I will give this 
Committee the truth, the full truth, and nothing but the truth, 
so help me God.

   TESTIMONY OF NICHOLAS J. RASMUSSEN, NOMINATED TO SERVE AS 
           DIRECTOR, NATIONAL COUNTERTERRORISM CENTER

    Mr. Rasmussen. I, Nick Rasmussen, do solemnly swear that I 
will give this Committee the truth, the full truth, and nothing 
but the truth, so help me God.
    Chairman Feinstein. Thank you.
    Do you agree to appear before the Committee here or in 
other venues when invited?
    Mr. Rasmussen. Yes, ma'am.
    Chairman Feinstein. Do you agree to send officials from the 
NCTC and designated staff when invited?
    Mr. Rasmussen. Yes, ma'am.
    Chairman Feinstein. Do you agree to provide documents or 
any other materials requested by the Committee in order for it 
to carry out its oversight and legislative responsibilities?
    Mr. Rasmussen. Yes, ma'am.
    Chairman Feinstein. Will you ensure that the NCTC and its 
officials provide such material to the Committee when 
requested?
    Mr. Rasmussen. Yes, ma'am.
    Chairman Feinstein. Do you agree to inform and fully brief 
to the fullest extent possible all members of this Committee on 
intelligence activities and covert actions, rather than only 
the Chairman and Vice Chairman?
    Mr. Rasmussen. Yes, ma'am.
    Chairman Feinstein. Consistent with past commitments from 
the Director of National Intelligence, will you promise to 
brief the Committee within 24 or 48 hours of any terrorist 
attack or attempted terrorist attack if requested by the 
Committee?
    Mr. Rasmussen. Yes, ma'am.
    Chairman Feinstein. Thank you very much. Please be seated, 
and we'd be interested in your opening statement.
    Mr. Rasmussen. Thank you, Madam Chair. Senator Feinstein, 
Senator Burr, and members of the Committee: Let me start by 
thanking you all very, very much for considering my nomination 
to be the next NCTC director. I also want to express my 
appreciation for the efforts of the Committee staff. I know 
there's a tremendous amount of work that goes into the 
preparation and review to support any confirmation hearing, and 
I'm very grateful.
    I'd also like to recognize and introduce my parents, Mary 
Jo and Gary Rasmussen, and my wife Maria Rasmussen. Their love 
and support means everything to me and I'm very glad they're 
here with me today.
    As you remarked, Madam Chair, I've briefed this Committee 
several times, as recently as last week, in closed session in 
my capacity as the Deputy Director of NCTC. But this is my 
first opportunity to appear before the Committee in open 
session and I truly welcome that opportunity.
    I'm honored by the President's trust and confidence in my 
ability to continue to serve in our national counterterrorism 
enterprise. Public service came naturally to me growing up in 
the Washington area, as I had to look no further than to my own 
family for example and inspiration. My father Gary and my 
mother Mary Jo moved to northern Virginia and Fairfax City from 
Wisconsin in 1962 so that my father could pursue a career in 
public policy. He was a career Federal employee, beginning at 
Department of Agriculture, working here on Capitol Hill for a 
short time as a junior staff member on the House side, and then 
retiring almost 40 years later as the most senior career 
official at the Department of Education.
    My mother was for a time a public school teacher in Fairfax 
County, while also playing an extremely active role in our 
local church and serving for over ten years on the board of the 
Northern Virginia Community College. Among my siblings, I have 
one who is an active duty military officer with two tours of 
duty in Afghanistan and another brother who proudly works in 
local government in Fairfax and volunteers in his church 
community. Again, everything I ever needed to learn about 
public service and public commitment I learned first-hand from 
my immediate family.
    I obviously have a long way to go before serving in 
government as long as my father, but I am currently on year 23 
of my own public service career. I started my Federal 
Government career while I was a student at Wesleyan University, 
worked as an intern at the Department of Defense, working on 
the Korea Desk. After finishing graduate school at Princeton, I 
joined the Department of State as a Presidential Management 
Intern, a PMI, just as the United States was liberating Kuwait 
during Operation Desert Storm.
    During my tenure at the State Department, I was given many, 
many extraordinary opportunities, whether it was working on 
efforts to dissuade North Korea from pursuing nuclear 
ambitions, establishing a formal structure to implement the 
Dayton Peace Accords in Bosnia, or, latest in my State 
Department career, working towards a lasting resolution to the 
Arab-Israeli conflict.
    But my career took a sudden turn in mid-2001 when I 
accepted a position on the National Security Council staff 
working on terrorism issues. My first day on the job was 
Monday, September 17, 2001, six days after the 9-11 attacks.
    Since that day 13 years ago, I have been singularly focused 
for every day of my career on the Nation's counterterrorism 
efforts. Those years include career positions at the White 
House under both Presidents Bush and Obama and at NCTC under 
Directors Brennan, Redd, Leiter, and of course Matt Olsen, who 
asked me to serve as his Deputy in June of 2012. Over those 
years, I've seen what I believe are vast improvements in our 
counterterrorism capabilities, structures, and policies. But 
that said, significant challenges remain and there is much, 
much work to be done. This is what makes the work of the men 
and women at NCTC so central to our national security. It's 
exactly why I would very much like the opportunity to lead them 
and to serve alongside them as their director.
    The U.S., the United States, working with our allies and 
partners, has made great strides in dismantling the Al-Qaeda 
organization that attacked us in September 2001, but the 
relationship threat we face continues to evolve, as both of you 
indicated in your opening remarks. As the President said in May 
at West Point, ``For the foreseeable future,'' quote, ``the 
most direct threat to America at home and abroad remains 
terrorism.''
    As the Committee well understands, instability in the 
Levant, the broader Middle East, and across North Africa has 
accelerated the decentralization of the Al-Qaeda movement. The 
movement's once global focus under Usama bin Laden is now 
increasingly being driven by local and regional conflict and 
factors. All across these unstable regions, we are confronting 
a multitude of threats to the U.S. and our interests, from 
longstanding, well-known terrorist groups, but also from newer 
and much more loosely connected networks of like-minded violent 
extremists who operate without regard to national borders or 
established organizational norms.
    This Committee, better than almost any audience I ever 
engage with, understands in great detail the diverse and 
multifaceted threat picture we face from Al-Qaeda and its 
various affiliates. That threat picture also includes other 
Sunni terrorist groups, to include ISIL. It also includes Shia-
aligned groups like Hezbollah and Iran's Quds Force. It even 
includes home-grown violent extremists who live amongst us here 
inside the United States.
    So to sum up that threat picture, in my view we face a 
broader array of threats from a greater variety of terrorist 
groups and individual actors than at any point since 9-11.
    Further complicating this threat picture are, of course, 
our losses in collection as a result of unauthorized 
disclosure, the spread of extremist messaging via social media 
in new and different ways, and the need we face to balance 
technology-based analytic tools with people-focused, human 
resource-intensive, eyes-on analysis.
    If I'm confirmed by the Senate, I look forward to working 
and helping the counterterrorism community overcome these 
challenges in the years ahead.
    Ten years ago, when Senator Susan Collins and Senator Joe 
Lieberman first put pen to paper in what would become the 
Intelligence Reform and Testimony Prevention Act of 2004, most 
in the country truly believed that a second large-scale 
catastrophic attack in the homeland was possible, perhaps even 
probable in the near term. Today the threat we face is quite 
different from then and I would argue that we are far better 
equipped to respond to it than we were perhaps in 2004.
    Earlier this year, as NCTC commemorated its tenth 
anniversary, we were very honored to host both authors of that 
landmark legislation in our auditorium. Senator Collins, you 
told the assembled workforce, quote: ``There's no doubt that 
information-sharing is far superior to what it was prior to the 
passing of the law in 2004, and there's no doubt that the 
talented workforce here at NCTC has made a huge difference.'' 
Unquote. Senator, I'm not sure that you could see the crowd 
very well through the stage lights at the auditorium there, but 
I can assure you that the members of our workforce at NCTC were 
beaming with pride when they heard your words.
    Ten years later, Senator Collins, I firmly believe that we 
can declare that your vision, that the Congress's vision for 
NCTC, has in fact taken hold. That vision called for an 
integrated and motivated NCTC workforce, fully empowered with 
access to the right information, and armed with the best 
training and tools. I believe that vision for NCTC is growing 
stronger every day.
    Yet, we all know this is no time for complacency, for self-
satisfaction, either at NCTC or anywhere else in the CT 
community. We understand well that significant challenges 
remain. The terrorist adversaries we face are persistent and 
adaptive, and so we too must learn and change and get better 
and improve every day. We must match and exceed their 
determination to attack us with our own will to make certain 
that they don't succeed.
    In the current position I have as Deputy Director and now 
Acting Director, I'm reminded of 9-11 and the threat we face 
every single day. If confirmed by the Senate, I would bring the 
focus and urgency borne of that terrible day 13 years ago to 
everything I do as Director. I would aim to ensure the best and 
brightest continue to fill our ranks at NCTC and I would aim to 
ensure that they are equipped with the tools and the training 
they need to meet the terrorist threat.
    In my 23 years in government service, I've worn a number of 
hats, working in a number of difficult government 
organizations. No label means as much to me personally over 
that time as the label ``member of the counterterrorism 
community.'' Every day I'm privileged to work with truly 
outstanding friends and partners all across that CT community--
at FBI, at CIA, NSA, the Defense Department, Homeland Security, 
Justice, State, and the Treasury, with our State and local 
partners around the country, with our international partners, 
at the White House, and here on Capitol Hill, with you and with 
your staff.
    The job for which I've been nominated demands very much, 
but I'm thankful for the loving support of my family, my wife 
Maria, my parents; and I'd like to take this rare opportunity 
to thank her and to thank them publicly today. They've always 
been there to support me as I've pursued my career.
    Madam Chair, I've been part of the NCTC family since its 
inception in 2004. Even when serving President Bush and 
President Obama for several years on the NSC staff at the White 
House, I still felt very personally connected to the remarkable 
organization at NCTC, its vital mission, its uniquely qualified 
workforce, and its terribly critical place within the 
intelligence community. There's no place in government where I 
would rather serve.
    Chairman Feinstein, Senator Burr, Senators, thank you as 
always for your steadfast support for the women and men who 
work every day at NCTC and for considering my nomination to be 
its next Director. I look forward to your questions. Thank you, 
Madam Chair.
    [The prepared statement of Mr. Rasmussen follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Feinstein. Thank you very much. That was 
excellent. Thank you very much.
    Mr. Rasmussen, in your written statement for the record you 
wrote, and I quote: ``Attacks, either linked or inspired by 
ISIL, in Belgium and Canada, recent arrests in Europe and 
Australia, demonstrate that the threat beyond the Middle East 
is real, although thus far limited in sophistication. However, 
if left unchecked, over time we can expect ISIL's capabilities 
to mature and the threat to the United States homeland 
ultimately to increase.''
    Could you expand on NCTC's view of the threat from ISIL to 
the extent you can here in an unclassified setting, please?
    Mr. Rasmussen. I'd be happy to, Madam Chair. I tend to 
think of the threat ISIL poses currently as being somewhat in 
concentric circles. Because their capability is greatest in 
Iraq and Syria right now, I think our personnel there are 
potentially greatest at risk, particularly in Iraq, where our 
embassy security is, of course, as you know, a serious concern.
    In the front-line states around Iraq and Syria--Jordan, 
Turkey, Syria--Jordan, Turkey, Lebanon, Saudi Arabia--there 
also we worry that ISIL has the capability and ability to 
potentially carry out attacks, to identify and mobilize 
personnel who could engage in attacks against U.S. personnel 
and interests.
    Beyond that, the next ring, the next outer ring I would 
look at, is into Western Europe, where the very language that 
you cited in your question indicates that ISIL looks at Europe 
as a potential theater of operations where it may carry out 
attacks against Western interests.
    Then lastly, the homeland, where we certainly believe that 
ISIL has aspirations over time to develop the kind of 
capability it would need to carry out a homeland attack. At 
this point, though, we assess that we're far more at risk 
presently of attack from an individual home-grown violent 
extremist who may be inspired by, but not necessarily directed 
by, ISIL here in the homeland.
    Then the point about if left unchecked; we worry that the 
longer ISIL is left unchecked and is allowed to pursue and 
develop a safe haven, the more that capability is allowed to 
grow to carry out attacks in each of those theaters that I 
mentioned.
    Chairman Feinstein. Thank you.
    I saw in your responses to our pre-hearing questions that 
you wrote that'll be hiring more than 40 officers this year. 
It's my understanding that, in addition to these 40, NCTC still 
has many vacant positions it needs to fill. So the question is, 
with respect to contractors, which we have some concerns about, 
how do you plan to fill the vacant spots at NCTC?
    Mr. Rasmussen. First of all, thank you, Madam Chair. The 
support NCTC receives from this Committee in our efforts to 
maintain the best possible workforce could not be better. We're 
very grateful for that.
    Chairman Feinstein. We'll keep it going.
    Mr. Rasmussen. The numbers you cite of 40 individuals who 
we're looking to hire this year reflects what we call ODNI 
cadre, people who are hired and work in the Office of the 
Director of National Intelligence. As you know and as most of 
the Committee knows well, NCTC has a blended workforce which 
includes permanent cadre employees, but also detailed personnel 
from other intelligence community, and not just intelligence 
community, but other government organizations as well. To me 
that is the real lifeblood of NCTC, the expertise, the talent 
that we get from other departments and agencies.
    Chairman Feinstein. Well, will the 40 be essentially 
transfers? Will they be a mix, and if so----
    Mr. Rasmussen. 40 will be new cadre direct hire. At the 
same time, in parallel we're pursuing an accelerated effort to 
try to get our detailee numbers up, for exactly the reason I 
just said: We need the talent that comes from other 
intelligence community partners. All of those partners are 
willing and very strong, strong supporters of NCTC as an 
enterprise. The challenge comes year in and year out as you try 
to keep the numbers up. They have their own staffing needs. In 
a period of budget uncertainty, they themselves sometimes 
struggle to meet their own internal efforts to staff 
themselves. So it's a constant dialogue with them, as I would 
say, it's a very positive dialogue with them, to make sure we 
can get talented officers from places like FBI, CIA, and other 
partners in the intelligence community.
    Chairman Feinstein [continuing]. Thank you.
    Senator Burr.
    Senator Burr. Thank you, Madam Chairman.
    Nick, the Committee, as you know, is charged with providing 
vigilant oversight. A couple of questions that really go in 
line with what the Chairman had you rise and raise your hand 
and swear to. Would you agree that the Committee, to conduct 
effective oversight, that we should have access to the 
intelligence products produced by the intelligence community 
and in some cases be provided with the raw reporting that 
contributed to that analysis?
    Mr. Rasmussen. Yes, I believe that in some specific cases 
it would make sense to have access to that reporting.
    Senator Burr. Will you commit to providing the Committee 
complete and timely access to all NCTC products, reporting, and 
staff, if necessary, to assist in our oversight responsibility?
    Mr. Rasmussen. Yes.
    Senator Burr. I won't get into staffing because I think you 
covered that with Senator Feinstein. Earlier this week, the 
Institute of Economics and Peace released its 2014 Global 
Terrorism Index. The report indicates that the deaths from 
testimony are at an all-time high. Significantly--specifically, 
the number of deaths attributed to terrorism is five times 
higher than it was in 2000, and we've witnessed a 61 percent 
increase in the last year alone.
    Would you agree that the threat from terrorism is at an 
all-time high?
    Mr. Rasmussen. I think as measured in the array, variety, 
and dispersion of terrorist threats across many different 
regions, the answer is certainly yes.
    Senator Burr. What is NCTC as the executive agent for our 
Nation's strategy against terrorism going to do about it?
    Mr. Rasmussen. The role that NCTC plays in carrying out 
strategic operational planning in support of the government is 
one that has us tied very closely to the National Security 
Council staff and the policy development percent for pursuing 
strategies on counterterrorism. We work with the National 
Security Council staff to develop whole of government plans to 
address our counterterrorism concerns in each of the theaters 
around the world, not just one single theater. As you would 
well expect, Senator, the effort to develop strategies against 
ISIL is at a particularly energetic pace right now. But our 
strategic operational planning capability is also brought to 
bear on the whole array of CT challenges we face in Africa, in 
Asia, in South Asia, every region you can think of.
    So I would consider our job at NCTC to make sure that we 
aren't leaving any holes in that fabric of strategy as we look 
out across all of the different CT challenges that we face, 
while at the same time prioritizing where effort needs to be 
most energetically directed. That of course right now would 
argue for a lot of effort to be directed at the challenges 
we're facing in Syria and Iraq.
    Senator Burr. Are you confident that NCTC can discover and 
are enabled to disrupt plots here in the homeland?
    Mr. Rasmussen. I would say that our ability to detect and 
potentially disrupt a plot involving a complex objective with a 
number of terrorist actors and a fair amount of communication, 
I would assess our odds as being very, very good at being able 
to detect and disrupt that, that kind of plotting.
    The more the plotting looks like what you and Chairman 
Feinstein talked about in terms of being an individual lone 
wolf actor, perhaps with no direct connection or even indirect 
connection to an overseas terrorist group, perhaps only a self-
radicalized individual working alone on the Internet to develop 
his own capabilities, that decreases pretty dramatically our 
ability to use traditional CT tools to detect and potentially 
disrupt. So it's hard to guarantee you or give you extreme high 
confidence that we would be able to detect and deter, disrupt, 
that kind of attack.
    Senator Burr. Do you think the administration and-or 
Congress should do more publicly to let the American people 
know the threat from terrorism and the fact that it's growing, 
not declining?
    Mr. Rasmussen. I would certainly agree with you, Senator 
Burr, and that's one of the reasons why this hearing being in 
open session I think is such a good thing. The 9-11 
Commissioners during the past year, as they reviewed where we 
are this many years later, one of their calls was on the policy 
community to speak more often, more publicly, more forthrightly 
about the threat environment that we face. I would certainly 
look to contribute to that in my own way from NCTC.
    So much of what we do is necessarily in closed session and 
with you, with your staff, but there are certainly 
opportunities where we can speak more directly, particularly to 
the homeland aspects of the threat, which I referred to a 
minute ago, and the presence of home-grown violent extremists 
and the threat they pose to our communities.
    Senator Burr. Nick, last question. In your response to the 
Committee's pre-hearing questions, you indicated that big data 
was one of NCTC's biggest challenges. The IC and the United 
States Government as a whole are really struggling with that 
challenge. At NCTC, however, the correlation of big data is a 
life and death matter. I'm concerned that this issue doesn't 
receive the proper attention and resources at NCTC.
    Can you assure us that you'll make this a top priority and 
that this effort will get the attention it needs?
    Mr. Rasmussen. Senator, you're right to point to this issue 
as being one of our biggest challenges, and I can commit to you 
wholeheartedly to embrace this as one of my top priorities. On 
his way out the door, during his last couple of months of 
service at NCTC, Matt Olsen directed the creation inside NCTC 
of an office, of a new office, an Office of Data Strategy and 
Innovation, to do a better job than we thought we were doing of 
organizing our short, medium, and long-term vision in terms of 
how to make best possible use analytically of the data we have 
access to.
    Some of that will also involve developing new technological 
tools, taking advantage of broader efforts by the DNI, by 
Director Clapper, to create a new architecture for terrorism 
and for intelligence information for the entire intelligence 
community. We hope to leverage NCTC's work as an early 
benefactor of that work to create a more cloud-based 
architecture for intelligence information across the IC.
    Senator Burr. I thank you for that and I hope you'll keep 
the community updated on the progress that we make on that.
    Thank you, Chairman.
    Chairman Feinstein. Thanks very much.
    Senator Collins.
    Senator Collins. Thank you, Madam Chairman.
    First of all, congratulations on your appointment, which I 
think is an excellent one. I appreciate very much that the 
President chose to put a career expert in this vital position 
and I thank you very much for your generous comments about the 
role that former Senator Joe Lieberman and I played in creating 
the NCTC.
    I do hope that you'll let this Committee know if you 
encounter difficulties in getting detailees who are well 
qualified and experienced to come work at NCTC. I know it's 
very hard for other components of the intelligence community 
and the FBI to let go of some of their most talented analysts, 
but for NCTC to be fully effective in these very dangerous 
times it is essential that we achieve that goal of jointness by 
having those detailees. So please do not hesitate to come to 
the Chairman, Ranking Member, any of us, if you do anticipate 
problems in that area.
    Mr. Rasmussen. I will. Thank you.
    Senator Collins. One of the findings of the 9-11 Commission 
was that border security and immigration were not seen as 
national security concerns prior to the attacks on our Nation 
on 9-11-01. The 9-11 Commission specifically found that 15 of 
the 19 hijackers could have been intercepted through more 
diligent enforcement of our immigration laws.
    As the Acting Director of the NCTC, were you or any of your 
staff asked to scrub the President's proposals for immigration 
changes that he will be announcing tonight?
    Mr. Rasmussen. To my knowledge, NCTC or any of the 
personnel at NCTC were not involved in any effort? I'm not 
aware of whether there was elsewhere in the intelligence 
community such an effort, but not at NCTC, ma'am.
    Senator Collins. When President Obama created the 2009 
Guantanamo Review Task Force to evaluate which detainees could 
be transferred or released from Guantanamo, as I recall the 
head of NCTC was the executive director of that task force; is 
that correct?
    Mr. Rasmussen. Yes. In prior service, Matt Olsen held that 
position as chair of the task force.
    Senator Collins. Matt Olsen has told me that when the 
decision was made to exchange what have become known as the 
Taliban 5 for the release of Sergeant Bergdahl, that NCTC was 
not consulted in that decision. To your knowledge, was anyone 
at NCTC consulted?
    Mr. Rasmussen. My understanding is that in the context or 
in the process of moving to the transfer of those detainees 
there was a request for an intelligence assessment from the 
ODNI, from the intelligence community, and such an assessment 
was in fact prepared. It was prepared by another element of the 
ODNI, not at NCTC.
    Senator Collins. And that was despite the fact that the 
NCTC was acting as the executive director for the commission?
    Mr. Rasmussen. Well, I would----
    Senator Collins. Or for the task force.
    Mr. Rasmussen [continuing]. Matt had that role in a 
previous, at a previous time. In the current processes that the 
administration is following for considering transfer of 
detainees, NCTC is being asked typically to produce threat 
assessments of what impact on security the potential return of 
a detainee may have. That did not happen in the case of the 
issue you're referring to, madam.
    Senator Collins. I just want to be clear on this. So the 
normal process is for NCTC to be involved in putting together 
the package that is used by decisionmakers on how to classify 
the detainees; is that part correct?
    Mr. Rasmussen. That's correct.
    Senator Collins. But in the case of the Taliban 5 the NCTC 
was not asked to put together a new analysis that went beyond 
the previous analysis, which according to press reports found 
that these detainees were too dangerous to be released; is that 
correct
    Mr. Rasmussen. Again, we did not have direct involvement in 
the production of the intelligence assessment.
    Senator Collins. Thank you.
    Again, I want to thank you for your willingness to serve in 
what is a 24-7 very demanding job, and I think we're very 
fortunate to have someone with your background and expertise.
    Mr. Rasmussen. Thank you, Senator.
    Senator Collins. Thank you.
    Chairman Feinstein. It looks like this is going to be a 
tough vote.
    Senator Rubio.
    Senator Rubio. Thank you.
    I too want to----
    Chairman Feinstein. For TV, I was jesting.
    Senator Rubio [continuing]. Thank you for your service to 
our country and congratulations on your appointment, and we 
look forward to moving forward quickly.
    Let me ask you a number of questions that are of interest 
to me and I think to everyone on the Committee. The first has 
to do with the planned reduction in U.S. commitment to 
Afghanistan and the growing concern that that would have 
implications on our ability to conduct effective 
counterterrorism operations in the region. There's been one 
success in all of this has been the ability to erode core Al-
Qaeda's presence, for example in the FATA. If we lose territory 
in Afghanistan back to the Taliban, we could very easily be 
once again in a position where many of those elements 
reconstitute strength in an ungoverned space somewhere in 
Afghanistan. If the government is no longer capable of 
exercising presence in that region and with less of a U.S. 
commitment, that could be accelerated.
    What are your thoughts on the current plans to draw down 
forces in Afghanistan and the impact it would have on our 
counterterrorism efforts?
    Mr. Rasmussen. As an intelligence community, we also are 
concerned about what potential effect the drawdown of U.S. 
forces may have on the ability of Al-Qaeda to regenerate 
capability, particularly in the northeastern parts of 
Afghanistan. The effort to train and equip a competent Afghan 
national security force is an important part of the effort to 
make sure that there is a capability to disrupt potential 
activity inside Afghanistan. We of course will maintain as 
robust as possible an intelligence collection framework to 
allow us to continue to monitor, track, and if necessary 
disrupt Al-Qaeda resurgence in that part of Afghanistan or 
certainly in Pakistan. But it will be a more challenging and 
more difficult collection environment than we face today.
    Senator Rubio. My second question has to do with Iran. 
There's been a lot of talk about some sort of deal with regard 
to their nuclear ambitions and the relaxation of sanctions 
against them. What has not been discussed enough is that Iran 
is the world's leading sponsor of terrorism as a state, and 
certainly any economic growth and prosperity that would come 
about as a result of the relaxation of sanctions I believe 
would have an impact on their ability to fund and expand their 
already robust sponsorship of terrorism around the world.
    I was hoping you could share some thought with us, not just 
about what Iran does now, but what they might be able to grow 
and do if in fact these sanctions are relaxed and they have 
more access to global capital, more money basically, to sponsor 
these operations.
    Mr. Rasmussen. The willingness and ability of Iran to 
support various Shia terrorist groups has always been very, 
very high on the list of concerns of the counterterrorism 
community and the intelligence community. One of the pathways 
to addressing that challenge has been to try to get Iran out of 
the business of thinking that carrying out those kind of acts 
advances their national interest, and ultimately they would see 
that as self-defeating and not advancing their interests.
    So I guess, speaking personally, in my own personal 
analysis anything that puts us in a position where we are more 
effectively dealing with Iran in a normal way would reduce the 
incentive for them to use that proxy network of Shia terrorist 
groups that they do in fact have at their disposal. There's no 
doubt, Senator, you're absolutely right, the capability of the 
terrorism apparatus sponsored by Iran is something that is 
threatening to the United States, not just in the region, in 
the Middle East, but all around the world and even potentially 
here at home.
    So I would place a priority in trying to, not necessarily 
seek to defeat that terrorism apparatus on the battlefield, as 
we have in our efforts against Al-Qaeda, but in effect trying 
to take them out of the business in some other fashion. That's 
how I would think about it. But there's no question, as we 
watch and worry about how Sunni-Shia tensions in the Middle 
East play out and how our interests in the region are put at 
risk by Shia-sponsored terrorist groups. But the focus on 
Iranian intentions will continue and be a very high priority.
    Senator Rubio. Your statement about putting them out of the 
business of sponsoring terrorism, it calls to mind the 
potential that any sort of sanctions relaxation perhaps should 
be linked not just to a nuclear program, but to their 
sponsorship of terrorism, as a leverage point to get them to 
abandon those sorts of things.
    Mr. Rasmussen. I can't speak to the policy context in which 
we would relax sanctions.
    Senator Rubio. Thank you.
    Chairman Feinstein. Thanks, Senator Rubio.
    Senator King.
    Senator King. Thank you, Madam Chair.
    Mr. Rasmussen, I have been to your office, I've been to the 
CIA, I've been to the Pentagon, and have traveled recently, and 
the one major conclusion I have taken from those visits is the 
incredible quality of the people that we have working for us. 
They're patriotic, idealistic, smart, and capable. And you're 
Exhibit A today, and I just want to thank you, and I'm honored 
to serve this country along with you and your colleagues, and I 
hope you'll take that word back.
    Mr. Rasmussen. Thank you, Senator. I really do appreciate 
that.
    Senator King. We've talked about this before. Here's my 
concern, and I urge you--I know that in the day to day work 
you're focusing on threats and attacks and dealing with fires 
around the world, and that's your basic mission. But we have to 
be thinking more strategically and long-term, it seems to me. 
We cannot simply kill these people and call that the solution 
to the worldwide terrorism problem.
    I'm looking--I remember from the fifties we had the 
containment strategy of George Kennan, that really worked with 
the Soviet Union. It took a long time, but it worked. And it 
was a strategy. It was a conscious, deliberate, well-developed 
strategy. I urge you to work with your colleagues, with the 
think tanks, with Rand Corporation or Brookings, whoever, to 
really work on a strategy for dealing with this problem other--
in addition to the military response.
    Do you have any thoughts on that?
    Mr. Rasmussen. It's a terrific suggestion, Senator, and 
obviously the expertise about how to carry out effective 
counterterrorism policy does not reside only within the 
government. As you alluded to, research organizations, think 
tanks, not just in Washington, but all around the country and 
all around the world, have a role to play in helping us get 
this right.
    The strategies that we try to help produce at NCTC in 
support of the National Security Council staff in my answer to 
Chairman Feinstein are typically whole of government 
strategies, not just relying on our intelligence capabilities 
or our military capabilities, but also trying to take advantage 
of the abilities, the resources we have across the government, 
to try to produce the conditions that would over time eat away 
at support for terrorism in some of these conflict locations 
overseas.
    At the same time, we all go into it understanding well that 
those efforts will ultimately take years, if not decades, to 
play out and for us to reap the benefits of those kinds of 
strategies, and in the mean time you're left to manage a very 
difficult threat environment.
    Senator King. I just want to be sure that we're not simply 
putting out the fires. We've got to put out the fires, but we 
also have to be thinking long-term, it seems to me. Otherwise 
we're in for a 100-year war.
    Mr. Rasmussen. Exactly right, sir.
    Senator King. This morning at a hearing at the House 
Intelligence Committee, an open hearing, I should mention, NSA 
Director Rogers said: ``There shouldn't be any doubt in our 
mind that there are nation states and groups out there that 
have the capability to forestall our ability to operate our 
basic infrastructure, whether it's generating power or whether 
it's moving water and fuel.''
    How concerned are you about terrorist groups using their 
own capacity or what I call hackers for hire to attack our 
infrastructure? How serious is the cyber attack threat?
    Mr. Rasmussen. I would agree with the NSA Director in what 
he said this morning. I think, as I understand it, the threat 
he's referring to is more acute from state actors at present 
than from individual terrorists or established terrorist 
groups.
    Senator King. Well, ISIL has shown a pretty good capability 
with the Internet.
    Mr. Rasmussen. Exactly, and it's certainly a capability 
they aspire to develop and exercise. So, knowing that, we're 
looking for ways to be ahead of them, both in our ability to 
defend our infrastructure, but also in our ability to detect 
key individuals who are engaged in that kind of activity and 
disrupt their activities.
    Senator King. Edward Snowden, you alluded to this. You 
didn't use the word. Isn't it true that we've lost a lot of 
capability in terms of tracking some of these groups because 
they have gone dark, in part based upon their awareness that 
was given to them by the Snowden revelations, and that's 
compromised our ability to protect ourselves?
    Mr. Rasmussen. I would agree with you. Not just the Snowden 
disclosures, but other disclosures of classified information 
and our collection capabilities, have caused our terrorist 
adversaries to adapt, to look for new ways of doing business, 
to find new platforms, to go dark in some cases, or just 
simply, as I said, find new ways in an attempt to keep us in 
chase mode as they move from potential platform to potential 
platform.
    This is an ongoing challenge for the intelligence 
community. I know our colleagues at NSA are particularly 
focused on this. But you're absolutely right, sir.
    Senator King. And it's a particularly serious danger 
because, in my view, with the terrorist threat intelligence is 
the first line of defense. These aren't people that we can line 
up the Army or the Navy and shoot. We need to know where 
they're coming and when, and intelligence is really--that's why 
it's so absolutely critical.
    Mr. Rasmussen. I would agree with you, sir.
    Senator King. Thank you.
    Thank you, Madam Chair.
    Chairman Feinstein. And thank you, Senator.
    Senator--I was going to say ``Warner''--Heinrich. Excuse 
me, Martin.
    Senator Heinrich. Thank you, Madam Chair.
    Mr. Rasmussen, I want to thank you for being here today and 
for all of your public service. As you can see, you have an 
enormous amount of respect from this body. I wanted to ask you. 
Given your experience with the National Counterterrorism Center 
really going back to its inception, it's clear that there are 
few in the Federal Government with your knowledge of the NCTC 
and its mission. In your responses to unclassified questions 
from the Committee, you talk a little bit about that unique 
role, particularly of NCTC analysis as outlined in the 
Intelligence Reform and Terrorism Prevention Act of 2004, as 
well as the mission objectives assigned to NCTC through the 
DNI's national intelligence strategy.
    I want to dig a little deeper, if I can, into the unique 
nature of the analysis that NCTC does relative to that done by 
a number of other intelligence community agencies. As you know, 
even though NCTC is effectively the primary U.S. Government 
organization tasked to analyze terrorist organizations, there 
are several other agencies within the IC track and they analyze 
terrorists as well. Can you articulate for us, how is the 
analysis conducted by NCTC truly unique compared to that done 
by these other agencies
    Mr. Rasmussen. One element that puts NCTC in a unique 
position to carry out the best possible analysis of terrorism 
information is our access to the full body of that terrorism 
information. That was the unique insight of the IRTPA, the 
effort to bridge the domestic-foreign intelligence divide. So 
an analyst sitting at NCTC will have access to whatever is 
available to the U.S. Government in terms of intelligence 
reporting from overseas collection efforts, as well as from 
domestic law enforcement investigations here at home, and that 
is not true of every other element of the intelligence 
community. So that puts NCTC, I would say, in a uniquely 
advantaged position.
    Now, that obviously plays out, that advantage, plays out 
more profoundly when you're talking about homeland threats, 
where the bridge between domestic and foreign intelligence 
matters so much. I would not quibble at the talent, capability, 
or insight that analysts from most of my intelligence community 
partners could bring to the analytical effort on some of our 
key challenges overseas. During the period of--I'll just give 
one example. During the period of our extended military 
involvement in Afghanistan and Iraq, the Defense Department, 
the Defense Intelligence Agency and their intelligence analysts 
were doing terrific work, most of it informed by time on the 
ground, and I would never do anything to suggest otherwise.
    But to answer your question, I think it's access to 
information that makes that critical difference.
    Senator Heinrich. Would you characterize the most unique 
thing as being able to see a bigger picture from multiple 
sources, and particularly when we're talking about a 
combination of foreign and domestic?
    Mr. Rasmussen. Yes, I would.
    Senator Heinrich. In your response to questions from the 
Committee, you also discussed the growing importance of 
monitoring social media and exploiting big data in tracking 
terrorist threats and conducting analysis. In your comments you 
mentioned that technology could help, quote, ``implement 
privacy and civil liberty protections beyond the current basic 
safeguards that are already in place.''
    Could you elaborate a little bit on what you mean by that, 
and also sort of describe for us the shortfalls as you see them 
in the privacy and civil liberties safeguards that are 
currently in place?
    Mr. Rasmussen. I wouldn't so much describe it as shortfalls 
as much as--I guess what I was referring to with that answer, 
Senator, was the more we can do to automate and make happen 
technologically segregation of information, deletion of 
information, all of the things we commit to do as part of our 
adherence to the Attorney General guidelines, the more we can 
take the human element of that, where a human makes a mistake 
and inadvertently sees something, retains something, holds onto 
something that they did not have authorization to do, the more 
we can automate that process through technology and give 
ourselves the ability also to audit ourselves more effectively 
and therefore train more effectively, that's what I was trying 
to get at with that.
    Senator Heinrich. So it's more about technology and 
implementation effectiveness than any sort of change in 
authorizations?
    Mr. Rasmussen. Exactly, because on those rare occasions 
when we have had something go awry in terms of handling of 
information, we have found that it has almost universally been 
a matter of human error rather than any intent to mishandle, 
misuse, or not protect information.
    Senator Heinrich. Thank you again.
    Chairman Feinstein. Thank you very much, Senator.
    I believe this completes the questions. I would like 
members to know that it's my intention to vote on this 
nomination as soon as possible when the Senate returns. It may 
be off the floor after Thanksgiving. Any member should submit 
questions for the record by next Monday so we can have the 
answers by the time the vote is taken, please. And we will do 
our level best to move this just as quickly as we can, Mr. 
Rasmussen.
    Mr. Rasmussen. Well, I'm very grateful for that, Madam 
Chair, and we'll commit to getting every answer back to you as 
quickly and as expeditiously as possible.
    Chairman Feinstein. That's fine. Can't do better than that. 
So thank you very much for being here.
    Mr. Rasmussen. Thank you.
    Chairman Feinstein. The hearing is adjourned.
    [Whereupon, at 4:13 p.m., the hearing was adjourned.]

                         Supplemental Material

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  
                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
